DLA Piper LLP (US)
401 Congress Avenue
Suite 2500
Austin, Texas 78701-3799
www.dlapiper.com
Aaron G. Fountain
aaron.fountain@us.dlapiper.com
T (512) 457-7190
F (512) 457-7001

August 5, 2019
VIA ELECTRONIC SERVICE AND UPS OVERNIGHT SERVICE
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543

Re:

Xitronix Corporation v. KLA-Tencor Corporation, dba KLA-Tencor, Inc.
No. 19-58

Dear Sir/Madam:
We represent Respondents, KLA-Tencor Corporation (“KLA-Tencor”), in the above-referenced matter. The
Petition for a Writ of Certiorari in the above-entitled case was filed and docketed on July 9, 2019, and the
response is due August 9, 2019. Pursuant to Rule 30.4 of the United States Supreme Court, we request a
fourteen (14) day extension of time to file a brief in opposition to the Petition for a Writ of Certiorari.
Aaron Fountain is counsel of record in the above-referenced matter and will be primarily responsible for
preparing KLA-Tencor’s response to Xitronix Corporation’s Petition. Mr. Fountain is currently traveling for
personal and professional reasons.
Accordingly, we respectfully request a fourteen (14) day extension of time, until August 23, 2019, to file a brief in
opposition to the Petition for a Writ of Certiorari.
We thank you for your time and attention to the foregoing.
Best regards,
/s/ Aaron G. Fountain
Aaron G. Fountain
AF:rb

WEST\287338064.1

